WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-135

Customedia Technologies, LLC

V.

DISH Network Corporation, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
ri Please enter my appearance as Counsel of Record for all respondents.

Ei There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
[1] I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature

9/8/2020

Date.

(Type or print) Name

Eliot D. Williams
Mr.

Firm

❑ Ms.

El Mrs.

111 Miss

Baker Botts LLP

Address

1001 Page Mill Road, Building One, Suite 200

City & State
Phone

Palo Alto, California

650-739-7511

Zip
Email

94304

eliot.williams@bakerbotts.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Raymond William Mort Ill

